<html>
<title> - TRANSFORMING GPO FOR THE 21ST CENTURY AND BEYOND: PART 3--FEDERAL DEPOSITORY LIBRARY PROGRAM</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]





    TRANSFORMING GPO FOR THE 21ST CENTURY AND BEYOND: PART 3_FEDERAL 
                       DEPOSITORY LIBRARY PROGRAM

=======================================================================

                                HEARING

                               BEFORE THE

                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               ----------                              

                           SEPTEMBER 26, 2017

                               ----------                              

      Printed for the use of the Committee on House Administration








[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]













                       Available on the Internet:
                        http://www.govinfo.gov/












































   TRANSFORMING GPO FOR THE 21ST CENTURY AND BEYOND: PART 3_FEDERAL 
                       DEPOSITORY LIBRARY PROGRAM

=======================================================================

                                HEARING

                               BEFORE THE

                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 26, 2017

                               __________

      Printed for the use of the Committee on House Administration









[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]









                       Available on the Internet:
                        http://www.govinfo.gov/
                        
                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

29-520                         WASHINGTON : 2018                         
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                   Committee on House Administration

                  GREGG HARPER, Mississippi, Chairman
RODNEY DAVIS, Illinois, Vice         ROBERT A. BRADY, Pennsylvania,
    Chairman                           Ranking Member
BARBARA COMSTOCK, Virginia           ZOE LOFGREN, California
MARK WALKER, North Carolina          JAMIE RASKIN, Maryland
ADRIAN SMITH, Nebraska
BARRY LOUDERMILK, Georgia




























 
   TRANSFORMING GPO FOR THE 21ST CENTURY AND BEYOND: PART 3--FEDERAL 
                       DEPOSITORY LIBRARY PROGRAM

                              ----------                             
                                         TUESDAY, SEPTEMBER 26, 2017

                          House of Representatives,
                         Committee on House Administration,
                                                   Washington, D.C.
    The Committee met, pursuant to call, at 10:13 a.m., in Room 
1310, Longworth House Office Building, Hon. Gregg Harper 
[Chairman of the Committee] presiding.
    Present: Representatives Harper, Davis, Comstock, Walker, 
Smith, Loudermilk, Lofgren, and Raskin.
    Staff Present: Sean Moran, Staff Director; Kim Betz, Deputy 
Staff Director/Policy and Oversight; Bob Sensenbrenner, General 
Counsel; Dan Jarrell, Legislative Clerk; Bob Tapella, 
Professional Staff; Erin McCracken, Communications Director; 
Jamie Fleet, Minority Staff Director; Khalil Abboud, Minority 
Deputy Staff Director; and Eddie Flaherty, Minority Chief 
Clerk.
    The Chairman. I now call to order the Committee on House 
Administration for purposes of today's hearing, Transforming 
the Government Publishing Office for the 21st Century and 
Beyond, part 3 of our hearing series, Examining the Federal 
Depository Library Program. The hearing record will remain open 
for 5 legislative days so Members may submit any materials they 
wish to include. A quorum is present, so we may proceed. I will 
keep my remarks brief to allow more time for questions and 
answers. However, I would like to take this opportunity to 
thank our witnesses who make up our two panels.
    Most of our witnesses have traveled from different parts of 
the country to be with us today and our Committee appreciates 
their attendance. Additionally, I believe for all of you this 
is your first time testifying before a congressional committee, 
and we welcome you. I know today's hearing is significant in 
many regards, most notably because the structure and 
operational aspects of the Federal Depository Library Program, 
or FDLP as it is commonly referred, have not been thoroughly 
examined since it was created in 1962. And if you think back to 
1962, the Beatles were touring, the late John Glenn became the 
first American to orbit around the Earth, and Walmart opened 
its first store. As we all know, times have changed since then.
    The digital revolution not only changed the way information 
is created, maintained, and disseminated, but it also changed 
the way in which the public consumes that information. That 
means for the Federal Depository Library Program and the 1,150 
libraries that participate in the program the technological 
advances have brought many questions. Created to disseminate 
government information through a network of participating 
libraries, those current programs set up under chapter 19 
contemplate an ink on paper, hard copy framework.
    The technological advances that have moved consumers of 
information away from hard copy documents to digital formats 
challenge this with many people who would consider an archaic 
framework. For example, the government documents are now born 
digital, meaning that they are created electronically and are 
transmitted via the internet. Some Federal publications are 
only available on Federal agencies websites. Many Federal 
Government documents are not captured in this program and are 
considered fugitive documents.
    Finally, there are costs associated with ensuring 
technology remains up to date. Notwithstanding these emerging 
issues, libraries must also continue to grapple with cumbersome 
processes, such as making sure paper-based collections are up 
to date and complete and ensuring collections are preserved 
accordingly.
    Many of the libraries that participate are also facing 
storage issues. These are just some of the issues that we will 
examine today. And I would like to now recognize Ms. Lofgren 
for the purpose of providing an opening statement.
    Ms. Lofgren. Thank you, Mr. Chairman. I want to thank you 
for calling this hearing and for paying attention to the 
Government Publishing Office, and specifically today, the 
Federal Depository Library Program, or the FDLP.
    The FDLP has a presence really in each one of our 
districts, and it plays a very important, but sometimes 
overlooked, role in keeping America informed. As the Committee 
hears from these distinguished witnesses and considers reforms 
to the FDLP, we have to keep in mind the program's founding 
principles: Government information should be free and available 
to all. We must protect the privacy of citizens and make 
available information that is never put on paper so that these 
important documents of our government are available for 
everyone to use forever.
    A modern and vibrant FDLP is not just about students and 
scholars and authors and researchers of today; it is about 
making sure that authentic documents about the work of our 
government is available tomorrow and many tomorrows after that. 
It is the service that these librarians and their institutions 
have provided to the public for generations. And I look forward 
to hearing from them about how we can help give them what they 
need to do to do it better.
    And, Mr. Chairman, in some ways--I was talking the other 
day about regular order and how many of us have decried the 
passing of the regular order. I think that although this may 
not be a headline gathering hearing, it is the kind of 
thoughtful work that responsibly must be made to make sure the 
government works well. And I want to thank you for convening 
this hearing, and I am eager to participate with you. And I 
yield back.
    The Chairman. Thank you, Ms. Lofgren.
    Any other Member wish to make an opening statement?
    Seeing none, I would now like to introduce our first 
panel's witness. And it is my privilege to introduce Laurie 
Hall, who serves as the Acting Superintendent of Documents for 
the United States Government Publishing Office. Ms. Hall has 
worked with the Government Publishing Office since 1985. Before 
accepting the superintendent position, Ms. Hall served as 
Managing Director. She has a bachelor's degree in art history 
and American studies from the University of Virginia and a 
master's degree in library science from Catholic University.
    Ms. Hall, the Committee has received your written 
testimony. You will have 5 minutes to present a summary of that 
submission. And to help you keep time, you will see the timers 
on the desk there. The device will have a green light for 4 
minutes and will turn yellow with 1 minute, and then the light 
will turn red, and we will certainly let you know then that 
time would be up. And we welcome you to this Committee and we 
look forward to hearing your testimony. You are now recognized 
for 5 minutes.

 STATEMENT OF LAURIE HALL, ACTING SUPERINTENDENT OF DOCUMENTS, 
                  GOVERNMENT PUBLISHING OFFICE

    Ms. Hall. Thank you, Chairman Harper, Ms. Lofgren, and 
Members of the Committee. Thank you for inviting me to join in 
the discussion about Title 44 and the evolution of the Federal 
Depository Library Program. My name is Laurie Hall, and I am 
currently serving as Acting Superintendent of Documents and 
Managing Director of Library Services and Content Management.
    I have worked in support of the FDLP since joining GPO in 
1985, and I currently oversee a very dedicated staff of 94 
librarians and information professionals that administer the 
four statutorily mandated programs: the Federal Depository 
Library Program, the Cataloging and Indexing Program, the 
International Exchange Service with the Library of Congress, 
and the By-Law Distribution Program.
    The Superintendent of Documents organization implements 
strategic programs and operations in partnerships with our 
1,143 libraries nationwide, Federal Depository libraries, and 
in collaboration with colleagues at GPO, with agency 
publishers, and national libraries.
    The historic program that is the FDLP has legislative roots 
that date back to 1813. In those 204 years, the program, in 
partnership with our libraries, continually evolves to meet the 
needs of the public seeking official publications and 
information about their government.
    Along the way, Title 44 has been modified, tweaked, 
interpreted to help the Superintendent of Documents 
organization better administer the program, working with our 
oversight committee, the Joint Committee on Printing. One most 
recent challenge has been the introduction of digital formats. 
When the 1993 GPO Access Act was passed, the Superintendent of 
Documents and the agency as a whole took on an entirely new set 
of responsibilities, developed new systems and infrastructure, 
modified work flows, revised policies and procedures, acquired 
new skill sets, and launched new services for our libraries and 
the public. Today, we have nearly 25 years of experience 
providing digital information to our depository community.
    Another example of where the FDLP moved forward was in 2002 
when a new technology was available and an obsolete practice 
could be eliminated as it no longer served our community. 
Currently, in Title 44, section 1711, the law requires GPO to 
print a monthly catalog of documents. We asked the Joint 
Committee on Printing to approve a project to implement an 
integrated library system with the new online public access 
catalog, eliminating paper production of the catalog. A Title 
44, section 1711 waiver was issued for the project in 2007.
    Today, the Catalog of U.S. Government Publications, we call 
it the CGP, contains close to 1 million bibliographic records 
for historic and current government information products and 
access to digital resources housed in FDsys or govinfo, agency 
websites, and partner libraries. Access to this information has 
increased exponentially.
    But not only is the GPO organization changing in the 
digital age; our libraries are obviously changing too to meet 
the new challenges of serving up government information to 
their communities. As we meet, work, and visit our libraries, 
we find that many of them are facing major budget cuts, 
decreased staffing levels, and have significant space issues. 
They tell us they need more flexibility in managing the 
collections in order to remain a member of the FDLP. They tell 
us they need more services from GPO to help identify, find, and 
collect digital government information, while still requiring 
certain products in tangible formats.
    For those libraries that have large historic print 
collections, they are looking to GPO to assist in projects that 
preserve these national assets, while helping to mitigate space 
and storage issues. For these reasons, Director Vance-Cooks 
asked the Depository Library Council, the FDLP community at 
large, and other stakeholders to provide inputs on changes to 
Title 44.
    To date, we have received over 130 submissions, and we are 
continuing to evaluate them. Some of the major themes that have 
surfaced are continuing to ensure free public access, 
preserving collections of all formats, providing libraries with 
additional options to select and receive material, offering 
grants for enhanced services, and sharing collections and 
services across State boundaries for regional libraries.
    While some of the recommendations for changes to Title 44 
are simple language changes, others could require 
investigations and analysis, new types of collaborations and 
partnerships, and potential organizational changes in order to 
find optimal solutions. The Superintendent of Documents 
organization is ready to take on these new challenges to best 
serve our libraries and the public seeking information about 
their government.
    Mr. Chairman and Members of the Committee, this concludes 
my remarks, and I am happy to respond to any questions that you 
have.
    [The statement of Ms. Hall follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

 
 
    The Chairman. Thank you very much, Ms. Hall. And now we get 
to ask you some questions.
    Ms. Hall. Okay.
    The Chairman. The Committee certainly is honored that you 
would be here. We will now have an opportunity. Each Member 
will have 5 minutes each to ask you questions that they have, 
and obviously, the Members are going to be looking at the clock 
as well. And I will begin by recognizing myself for 5 minutes, 
and I will start by asking you a few questions.
    Before I do that, I certainly want to acknowledge that we 
are honored to have in the hearing room today Davita Vance-
Cooks. Ms. Vance-Cooks is the Director of GPO, and it is 
probably better to just be here to visit as opposed to 
testifying. Right? So we are honored to have you here with us 
today. So you can relax.
    Ms. Hall, can you tell us, how much money is spent 
providing tangible documents to regional libraries?
    Ms. Hall. Somebody asked me that question just before I 
came. We have not really investigated how much money per 
library. Regional libraries in the past had to select or 
receive all of the material. Now, they are allowed to receive 
different formats; some may receive microfiche, some may 
receive paper, and there are some particular titles that they 
do not have to receive. So each collection is a little bit 
varied, as well libraries have been in the program for a long 
time. So we have not done that kind of investigation on how 
much--because we usually develop services that will help all 
the libraries, the smallest to the largest.
    The Chairman. Even without maybe the totals, would it be 
the same cost for each regional library?
    Ms. Hall. In terms of our--no, because we send them more 
material, so the cost of publications, the number of titles 
would be more, and the postage would be more, just from a 
tangible distribution perspective.
    The Chairman. Let's talk just a small item, but maybe not 
so small with what you have to do would be shipping costs. So 
do we have an indication of what the shipping costs would be, 
perhaps depending upon where the regional library is located, 
and how is that shipped to them?
    Ms. Hall. Right, yeah. Depending on where they are located, 
it costs more. And we have different services to get it to 
Alaska, to Puerto Rico, rather than sending it down the street 
to Virginia.
    Yeah. I don't have those with me, but I can get you those 
costs.
    The Chairman. It probably wouldn't hurt if we could just 
take a look at those, if you could gather those up and send 
those to us in the future.
    Ms. Hall. Okay.
    The Chairman. And obviously, those costs are different, we 
realize that, but let me shift over for a minute.
    In chapter 19, government publication is defined as, quote, 
informational matter which is published as an individual 
documented government expense or as required by law. But if you 
move over to chapter 41, the term Federal electronic 
information means, quote, Federal public information stored 
electronically.
    Are these definitions consistent? And should there be a 
single definition for the entire title? And if so, give us a 
little guidance here on what your thoughts are.
    Ms. Hall. My opinion is I would like to have a consistent 
definition, because in the way the information is produced, 
even the agencies still ask us--you know, when you go to Title 
44 it says print publications. When they ask us, well, do I 
have to let you know about digital publications, we say yes. We 
have always considered government information regardless of 
format and within scope of the program, it is not for national 
security, you know, it is not for administrative use as part of 
the program.
    The Chairman. That has been our ongoing, you know, struggle 
here as we look at something that really hasn't been changed as 
the way that the items are disseminated and now stored, it is 
time for a look. So we would be very interested in your input 
as we go forward on this. I know the Members will also have 
some questions here to ask.
    So with that, I am going to stop and recognize Ms. Lofgren 
for 5 minutes for any questions that she may have.
    Ms. Lofgren. Thank you, Mr. Chairman.
    You know, I wanted to ask a question about standards 
developed by private entities that are incorporated by 
reference into law. It is my understanding that these standards 
are only minimally accessible through a small number of Federal 
depository libraries or citizens can pay money to the standard 
development organization that developed them for a copy or to 
access the standards.
    Now, if we pass a law and we incorporate these privately 
developed standards for--usually, it is regulating health or 
food safety, infrastructure, building fire codes, even 
children's playground equipment, these standards are as much of 
the law as anything we write, you know, down with legislative 
counsel. So the question I have is whether we can take a step 
forward to make sure that these standards are more accessible 
to the public than I think they currently are.
    I honestly think there is a huge due process problem here. 
If the law applies to you but you don't have the capacity to 
find out what it is without paying a fee, I think that is a due 
process violation. But the question is what can FDLP do to 
increase physical access to these standards, and what should 
the FDLP do to increase digital offsite access to these 
standards? And what should Congress do to assist you in this?
    Ms. Hall. We have some examples of that in the past when--
and my colleagues can correct me if I get the names wrong, but 
the Commerce Department at one particular time transferred some 
of their information from a print to a digital service. And it 
was a fee service. And we as a depository--the FDLP program 
worked with the Commerce Department to allow and provide access 
for depository libraries to get into that information free.
    So there are some scenarios that we have done in the past 
to make sure that if patrons coming into libraries needed 
access to a database of information that was in scope of the 
program, that they had ability to get in freely without paying. 
So we do have some models that we have used in the past that 
may still apply to this, and we have been able to give our 
depository libraries access to quite a few things.
    Ms. Lofgren. Well, I am wondering if, you know, maybe after 
this hearing we can follow up with some examples on this, 
because there is litigation underway about this. But it is 
really an important issue, I think, of due process in the 
United States.
    I have a question about how the GPO provides depository 
libraries with preservation best practices information and 
specifically digital best practices. If you have, you know, a 
piece of information, digital information that is only valuable 
if you can read it, which relates to not just having the data, 
but having the access to the program to read the data, that may 
seem easy right now, but 100 years from now, it may not.
    Ms. Hall. Right.
    Ms. Lofgren. And so I am wondering what efforts are we 
making to make sure, not only GPO, but all of our sister and 
brother libraries are maintaining access to the data?
    Ms. Hall. That is a good question. This is a relatively new 
field. We at GPO work with other organizations, national 
libraries in collaboration on these particular issues. For the 
FDLP, we have a Preservation Librarian, and we are in the 
process of hiring a Digital Preservation Librarian. We have 
provided webinars and information exchange for our libraries on 
preserving tangible and digital objects. We are in the process 
of getting ready to do an audit for our trusted digital 
repository, which will be the first in the government. We have 
done the self-audit of FDsys/govinfo, so we are becoming more 
and more familiar with long-term preservation and collection of 
digital assets, so----
    Ms. Lofgren. Thank you very much, Mr. Chairman. I will 
yield back.
    The Chairman. The gentlelady yields back.
    The Chair will now recognize Mr. Davis, the Vice Chairman 
of the Committee, for 5 minutes for the purpose of questions.
    Mr. Davis. Thank you, Mr. Chairman.
    And, Director, thank you for the tour a few weeks ago. I 
learned a lot about the GPO. I appreciate the time that many of 
your employees took to show us around, and they were great. I 
just wanted to relay my personal thanks.
    Ms. Hall, thanks for being here today. GPO has published a 
document entitled Legal Requirements and Program Regulations of 
the Federal Depository Library Program, which were downloaded 
from FDLP.gov. It is dated June 2011. Are these the most 
current SuDocs regulations?
    Ms. Hall. Yes.
    Mr. Davis. Okay.
    Ms. Hall. We are in the process of doing some revision of 
those. And we have done those online so that we can revise them 
on an ad hoc basis. So, yeah, we are in the process of doing 
those.
    Mr. Davis. All right. How were those regulations--how were 
these created?
    Ms. Hall. A lot of them are really like best practices. 
They are based on interpretations of Title 44, working with our 
libraries, what works. So, yeah, it is to give them guidance 
and how working with our outreach librarians, how to deal with 
certain situations in libraries, so----
    Mr. Davis. Okay. As a legislative branch agency, we know 
GPO is not required to follow the Administrative Procedures 
Act. However, did GPO follow the spirit of the Act, including 
noticing the FDLP community and seeking comments from them as 
these regulations were contemplated?
    Ms. Hall. Yes, we always do. We either formally on our 
travels meeting with librarians give them copies of these, work 
with them. We have committees, our Depository Library Council 
worked with our staff on that particular document. So, yeah, we 
always have input from the community, the associations, and our 
working librarians when we draft those kind of documents.
    Mr. Davis. Well, thank you. As somebody who represents an 
FDLP at the University of Illinois, that communication is very 
much appreciated.
    We have heard from some selective libraries that they often 
must take additional documents in a particular category in 
order to get the specific documents they would like to get. 
Would you please describe to us how that process works and for 
these types of libraries?
    Ms. Hall. Yeah. That process has been going on since about 
1940, where we have general categories of materials from a 
particular agency. So you will have the Department of 
Agriculture, and you can select general publications, which is 
everything like pamphlets, brochures, that kind of thing. And 
if you select that, you get a wide, random offering. But there 
are specific categories where you can say I only want the 
annual reports, and you will only get the annual reports.
    It is an old system, you get stuff you don't want 
particularly. And it is something we have talked about with our 
libraries many times about how to modify it, change it. We have 
a lot of public libraries that are interested in, like I said, 
only getting specific documents, and in tangible format. So we 
have been talking to them about different kinds of solutions to 
get them only the things that they really want.
    Mr. Davis. So 1940s. I wasn't here then.
    Ms. Hall. Well, neither was I.
    Mr. Davis. In Congress or here.
    So, I mean, it seems in today's day and age, with much more 
being printed online, that the selective process ought to be 
able to work better, so----
    Ms. Hall. I agree. I totally agree.
    Mr. Davis. How would you change that? How would that work 
better?
    Ms. Hall. In talking to the public libraries, a lot of the 
little public libraries, they want something which I kind of 
call a la carte ordering. You know, here is the new title that 
has come out, do I want a digital record for it to put in my 
catalog or do I want a printed document? Check.
    So some of the libraries that are smaller and want 
different formats and have very, very specific things that they 
know their community wants, that may work. Now, for the bigger 
institutions, it is going to be a little more complicated, but 
that is one suggestion.
    Mr. Davis. Do you consider the University of Illinois 
system being a bigger institution?
    Ms. Hall. Yes, yes. And they have a long history of 
selecting a lot of materials for a lot of purposes to serve, 
you know, academic communities. Yeah, there are different needs 
in different institutions.
    Mr. Davis. Okay.
    Ms. Hall. It is going to be a good challenge.
    Mr. Davis. Is there anything we can do as a committee to be 
helpful in that process?
    Ms. Hall. I think we will let you know.
    Mr. Davis. Besides not having you come here to testify?
    Thank you for your time.
    Ms. Hall. You are welcome.
    Mr. Davis. We appreciate your time.
    I yield back.
    The Chairman. The gentleman yields back.
    The Chair now recognizes Mr. Raskin for the purpose of 
questions for 5 minutes.
    Mr. Raskin. I actually have no questions, Mr. Chairman.
    The Chairman. Okay. The gentleman yields back.
    I now recognize the gentleman from North, Carolina Mr. 
Walker, for 5 minutes.
    Mr. Walker. Thank you, Mr. Chairman. I appreciate your time 
today as always.
    In the U.S. Government Publishing Office's response to a 
number of questions for the record from earlier hearings 
regarding the GPO's visit to a number of depository libraries, 
GPO responded with this: While most libraries do not want to 
commit to preservation services for Federal publications, they 
are concerned that these services be done by the government and 
others to ensure that there is permanent public access for 
these resources.
    You probably remember that and are familiar with it. Is it 
correct the Superintendent of Documents would be that the 
government, in quotations, in this instance, could 
Superintendent of Documents provide that service? What are the 
costs associated with providing the comprehensive service? And 
one last question, since we are throwing three at you real 
quick, could the Superintendent of Documents partner with an 
organization such as HathiTrust?
    Ms. Hall. Yeah. Our model that we would like to use is more 
of a collaborative model. We have some things that we have 
centralized like FDsys/govinfo. But right now, we have 
different libraries who we collaborate with to preserve certain 
parts of the collection and also for digital as well. We have 
libraries that are digital partners with us. So we like the 
collaborative model rather than a centralized model to do both 
preservation of tangible and digital.
    And we have reached out to Hathi probably every year since 
2015 to potentially work with them. They have an access model; 
we are looking more for a preservation model for storing 
materials both tangible and digital. So, yeah, collaboration is 
the key.
    Mr. Walker. Well, how hopeful are you that this 
collaborative model will work long-term in resolving some of 
these concerns?
    Ms. Hall. They do. For instance, we have a new program that 
is called the Preservation Steward. So we do have libraries 
that want to preserve tangible documents, some massive 
collections and some smaller collections. So we have agreements 
with them that they are committed to save these documents, and 
we renew those agreements every 5 years. Then we have some 
libraries, the University of North Texas is one of them, who is 
one of our digital partners and is preserving digital 
information that right now is not in FDsys/govinfo. So we have 
a partnership with them as well. So it is kind of a 
collaborative, scattered model.
    Mr. Walker. We understand that one of the benefits the 
Federal agencies using the GPO express program through FedEx 
office is that the Superintendent of Documents has an 
opportunity to review print orders for possible inclusion in 
the FDLP. How does that Superintendent of Documents review 
work? Can you shed some light on that?
    Ms. Hall. Well, it doesn't work now. We did some 
investigation and study. We were looking at all of the files 
that came from GPOExpress for about 5 years, and what we found 
was the majority of stuff coming through GPOExpress program was 
slides, pages from a document, publications that agency 
personnel were using to do presentations. A lot of times they 
weren't complete documents.
    Mr. Walker. You said for years.
    Ms. Hall. For years. And I can give you a report. I don't 
have it with me, but a report.
    We found that it took a lot of staff time to go through 
file by file by file, and it was much easier to actually go to 
the agency website and get a complete document. That was--it 
also has more provenance. It is at the agency website. So we 
found that the GPOExpress program was not a really good source 
of complete government information that was in scope of the 
program.
    Mr. Walker. So your long-term suggestion or solution would 
be what?
    Ms. Hall. My long-term suggestion was to continue to do 
outreach to the agencies, and we do that on regular basis. We 
are in the process of doing a study with the Library of 
Congress Federal Research Division, and they are surveying 
specific agencies, talking not only to their printing officers, 
but to their publishing officers. They are not necessarily the 
same people anymore, because the digital publishers put things 
on the web, but the printers, they are different offices often, 
to try to find how to best get that information from agencies. 
So we would rather work more with the agencies directly to get 
their material.
    Mr. Walker. Thank you very much.
    With that, I yield back to the Chairman.
    The Chairman. The gentleman yields back.
    The Chair now recognizes the gentleman from Nebraska, Mr. 
Smith, for 5 minutes for questioning.
    Mr. Smith. Thank you, Mr. Chairman. Thank you, 
Superintendent.
    I was wondering what the cost to provide tangible documents 
would be to selective libraries, and is there a difference in 
cost between libraries or, for example, difference in cost 
between East Coast to West Coast? And then who makes the final 
decision on how money per library is spent and is there a 
limit?
    Ms. Hall. Yeah. Right now, we have not done a study, in my 
30 years, about the cost per types of libraries because each 
library is so different. A selective library--one library may 
select 10 percent, one may select 60 percent. One may be in 
California, one may be in Virginia. So there is no formula or 
investigation we have done to date that--because they are all 
so different; I guess that is the best way of saying it. 
Postage costs are different depending on where they are 
located, if they are in Puerto Rico or they are in Nebraska. So 
we don't really have that sense.
    And when we develop programs or projects, we try to develop 
them that will have an impact for all libraries or a service 
that all of them can utilize. We are in the process of doing 
some new service called LibGuides, it is a library term, 
librarians know about it. And we are developing it so all of 
our libraries would have access to it. You know, and it can be 
used by all types of libraries, big and small.
    Mr. Smith. All right.
    Ms. Hall. That information, we could do some investigation 
if you would like.
    Mr. Smith. Thank you.
    Ms. Hall. Okay.
    Mr. Smith. I yield back. Thank you.
    The Chairman. The gentleman yields back.
    That concludes the questioning of Ms. Hall. We want to 
thank you very much for being here.
    Ms. Hall. You are welcome.
    The Chairman. And without objection, all Members will have 
5 legislative days to submit to the chair additional written 
questions for the witness, which we will forward and ask the 
witness to respond as promptly as she can so that her answers 
may be a part of the record.
    We want to thank you for being here and wish you the best.
    Ms. Hall. Thank you. You are welcome.
    The Chairman. Thank you for coming. Appreciate it.
    With that, I will now invite our second panel of witnesses 
to the table, and we will talk a moment to get everyone set in 
place.
    I want to thank each of you for being here. And I am going 
take a minute to introduce each of you before we allow you time 
to give your testimony.
    Celina McDonald is the Librarian for Government Documents, 
Law Criminology, and Criminal Justice at the University of 
Maryland. Ms. McDonald previously served as an Assistant 
Librarian at Clemson University. She earned her bachelor's 
degree in Russian Studies and English from Lehigh University, 
and her master's degree in the Science of Information from the 
University of Michigan's School of Information.
    Beth Williams serves as Stanford Law School library 
director. She has served as the director of the law library and 
information services at Louisiana State University Law Center 
and head of public services at Columbia Law School, where she 
also taught legal research. Ms. Williams earned her law degree 
from Syracuse University College of Law, a master's degree in 
library and information science from the University of 
Washington Information School, a master's degree in philosophy 
from Marquette University, and a bachelor's degree in 
humanities from the University of West Florida. I am dizzy just 
reading all of that. Welcome, Ms. Williams.
    Stephen Parks serves as the State librarian of Mississippi. 
Before he was elected to the position by the Mississippi 
legislature, Mr. Parks served as a Research Instructional 
Services and Circulation Librarian at Mississippi College 
School of Law, while also teaching legal research there. Mr. 
Parks has a bachelor's degree from East Carolina University, a 
law degree from Mississippi College School of Law, and a 
master's degree in library and information science from the 
University of Southern Mississippi.
    Mike Furlough serves as the Executive Director of 
HathiTrust Digital Library. Mr. Furlough previously served as 
both the Assistant Dean, and later, the Associate Dean for 
Research and Scholarly Communications at Penn State University 
Libraries. Mr. Furlough received a master's degree in English 
and American literature from the University of Virginia.
    I want to welcome each of you here to testify today. This 
is going to be very helpful to us to see how this actually 
works on the ground in the real world there. And we are excited 
to have you; look forward to hearing you.
    The Committee has obviously received your written 
testimonies and had an opportunity to review that. So each 
witness will have 5 minutes to present a summary of that 
submission. And to help you keep time, as you have seen the 
clock that is there with the light system. The device will be 
green for 4 minutes and will turn yellow with 1 minute 
remaining. And when the light turns red, it means that your 
time has expired. But you have already seen that no trap door 
will open up, but we are excited to have each of you here.
    And we will now--the Chair will now recognize our witnesses 
for the purposes of the opening statements, beginning with Ms. 
McDonald. Welcome. You are recognized for 5 minutes.

    STATEMENTS OF CELINA MCDONALD, GOVERNMENT DOCUMENTS AND 
 CRIMINOLOGY LIBRARIAN, UNIVERSITY OF MARYLAND; BETH WILLIAMS, 
  LIBRARY DIRECTOR, STANFORD LAW SCHOOL; STEPHEN PARKS, STATE 
    LIBRARIAN OF MISSISSIPPI; AND MIKE FURLOUGH, EXECUTIVE 
              DIRECTOR, HATHITRUST DIGITAL LIBRARY

                  STATEMENT OF CELINA MCDONALD

    Ms. McDonald. I have to be careful; my voice carries very 
easily.
    Thank you, Chairman Harper, Ranking Member Lofgren, and 
Members of the Committee on House Administration for inviting 
me here before you. It is an honor to give my testimony 
regarding my experiences as a regional federal depository 
library coordinator for University of Maryland, College Park, 
as well as at Clemson University.
    Before I proceed, I want to make sure to include this 
disclaimer that I am testifying on behalf of myself with my own 
experiences. I made sure to consult legal at the different 
institutions to make sure that they understood that I was just 
testifying for me.
    I am going to begin with my experiences at the University 
of Maryland and then kind of delve back in my experiences at 
Clemson.
    The University of Maryland libraries, its mission is to 
support the intellectual inquiry and learning required to the 
education, research, and community outreach mission of the 
University of Maryland, which is comprised of over 39,000 
students, 4,300 faculty, and 5,400 staff. On top of all of 
those research interests, we are also the regional federal 
depository library for 59 selective libraries in Maryland, 
Delaware, and D.C., including 32 Federal agency libraries.
    As the regional federal depository library coordinator, I 
oversee the university and the region's U.S. Government 
documents collections. This includes providing training, 
facilitating annual meetings, responding to depository 
questions, providing research support to the public, and 
oversee the materials withdrawal process, which I am sure you 
guys have heard a great deal about at this point.
    Like many of my peers, I face the problem of having a 
growing collection that must be maintained in a finite amount 
of space with a finite amount of resources. Just consider, last 
year, I had one student who worked 20 hours a week to shelve 
all materials, retrieve duplicate copies, offer them to other 
institutions, transport them to another department for 
processing, and when necessary, to ship them to the receiving 
institutions. No matter how hard he and I tried, we simply 
could not keep up with the work.
    Fortunately, at Maryland, and as well as at Clemson, I have 
had very, very good, positive working relationships with my 
colleagues, and they have been able to support me. And I find 
that bribing people with baked goods, bread pudding is a 
winner, people offered to help me move. So I highly recommend 
that you take some baked goods.
    But even with all of that, there comes a point where my 
colleagues kind of have to say, hey, we need to do our jobs 
too, you know, hold on to your baked goods for another 6 months 
and then we can help you again.
    One of the ways that regional libraries can approach the 
problem of having expensive, low-use, space-consuming 
collections is to relinquish regional status, which we did at 
my previous institution, Clemson University. The decision to 
relinquish regional status was not made lightly. It took 2 
years from when the first--the idea was first broached to when 
with we fully relinquished regional status. During that 
process, I undertook to examine all the ways that it could 
impact other libraries in the region, the students, the users, 
and of course, the general public, how it would affect them.
    At Clemson, it was possible for us to relinquish regional 
staff, at least in part, because we were what is called a 
shared regional. We were coregional. There was a second one in 
South Carolina that was perfectly happy to stay regional. So we 
were able to relinquish our regional status without having any 
negative impact on the public.
    One second. I need a little bit of water.
    The Chairman. And then while you are doing that, I also 
would note that the baked goods probably works really well for 
the intensity of questions by the Committee, but that is just--
--
    Ms. McDonald. In contrast, at the University of Maryland, 
we are the only regional for three areas: D.C., Maryland, and 
Delaware, so we don't have really that option. Many of the 
libraries rely upon us to help them fulfill their FDLP 
responsibilities.
    In order for us to continue as a regional, UMD needs 
greater flexibility and control over its collection. In 
particular, it would help if institutions were able to share 
regional federal depository library materials between State 
lines. I have got selectives in other areas. Perhaps I can send 
some things their way when they want them. Save them some money 
and save me some space.
    Another way would be to give regional libraries more leeway 
to substitute electronic publications from approved sources, 
such as govinfo and FDsys, in order to right size our 
collections to the needs of our users and institutions. When I 
say users, I don't mean just the UMD community; I mean to the 
community at large, because as a regional, that is our 
community. The community is the region.
    And I know that some people have reservations--oh, my time 
is up, so I am going to wrap it up by saying that I appreciate 
you guys having me here today and I welcome any questions. I am 
right around your corner, so if you need to stop by and ask me 
some questions, feel free.
    [The statement of Ms. McDonald follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    
     
    The Chairman. Thank you very much, Ms. McDonald.
    The Chair will now recognize Ms. Williams for 5 minutes for 
the purposes of an opening statement.

                   STATEMENT OF BETH WILLIAMS

    Ms. Williams. Chairman Harper and Members of the Committee, 
good morning. My name is Beth Williams and I am the director of 
the Robert Crown Law Library and senior lecturer in law at 
Stanford Law School. I am currently serving in my second of a 
3-year term as a member of the Government Publishing Office's 
Depository Library Council. And I am pleased to appear before 
you today in my personal capacity. Thank you for the invitation 
to appear at this important hearing. I have been following the 
Committee's review of Title 44, and I am honored to be able to 
share my thoughts about potential reform.
    I approach the question of how best to improve and 
modernize chapter 19 of Title 44 based on my experience, not as 
a seasoned government documents librarian, but as a law 
librarian working with and managing FDLP collections in private 
institutions, like my home institution now, previously at 
Columbia Law School, and in public institutions during my 
tenure at Louisiana State University.
    Academic law libraries have relatively smaller but vital 
FDLP collections, including primarily the laws that govern this 
Nation. And law librarians are nothing if not passionate about 
access to and preservation of the law.
    For the past 12 years, I have also had the privilege to 
teach law students at Stanford, at LSU, and at Columbia, where 
and how to find the law, much of which is dependent upon a 
familiarity with the complex nature of legal publishing.
    As a member of the Depository Library Council, I have 
learned a great deal from my distinguished colleagues serving 
in different types of depository libraries, regional libraries, 
and other selective libraries like my own, public libraries, 
court, county and State libraries, and fellow academic 
libraries. The diverse group of libraries in the FDLP share 
many similarities, the most important being our dedication to 
public service and providing our patrons with the broadest 
swath of government information.
    I have also witnessed GPO's dedication to this program and 
their efforts to forge creative solutions with the library 
community to the challenges inherent in this program.
    I believe that three key revisions to chapter 19 of Title 
44 would position the FDLP and the GPO to more efficiently, 
comprehensively, and successfully manage government information 
in the digital age. As it currently stands, the FDLP represents 
a strong and important partnership between the Federal 
Government and the diverse network of dedicated libraries and 
librarians to meet the goal of keeping America informed. The 
impetus to modernize chapter 19 should focus on positioning the 
GPO to play a central role in managing the lifecycle of 
government information, the vast majority of which is now 
digital, and disseminating that digital information in 
partnership with the network of FDLP libraries.
    To this end, I recommend the following three changes: 
First, the definition of government publication in section 1901 
of Title 44 should be amended to include information in all 
formats, including most importantly digital information. The 
current definition woefully fails to capture the universe of 
digital documents produced by the Federal Government. This is 
hardly surprising given its age. As early as 1990, my law 
librarian mentors were arguing for a format neutral definition 
of government publication to include electronic information, 
rather than relying on a 19th century notion of printing 
processes.
    Though no format is specified in the statutory definition, 
that is, the terms ``print'' or ``paper'' do not appear, many 
government agencies have erroneously interpreted the term 
``document'' to be synonymous with paper, leaving the bulk of 
our Nation's documentary heritage in the digital age either 
fragile or forgotten. Amending section 1901 will place the GPO 
in partnership with the FDLP community in the best position to 
identify, describe, disseminate, and manage government 
information in all its formats.
    Second, the change to section 1901 should be accompanied by 
an amendment to section 1902, and following, to require 
legislative, executive, and judicial branch agencies to deposit 
electronic publications with the GPO for dissemination.
    Many nations throughout the world collect their published 
output as systematically and comprehensively as possible 
through some form of so-called legal deposit, making this 
valuable content openly and freely available to current and 
future generations. In general, legal deposit schemes create a 
system in which publishers and libraries work together to 
ensure success in depositing content, irrespective of format or 
technology.
    The United States has been conspicuously absent in creating 
a legal deposit scheme for digital content. The method of a 
deposit required under the statute, in my opinion, should be 
neutral to allow GPO maximum flexibility to passively receive 
or actively harvest content in a variety of ways over time.
    Third, chapter 19 should also be amended to include the 
obligation to preserve digital content obtained and distributed 
by the GPO. The GPO is well placed to take on a leadership role 
as a digital preservation manager, and I have confidence that 
they are capable and up to that task.
    Finally, I would be remiss if I did not include some 
mention of the financial cost involved in the FDLP. The digital 
age of publishing has opened up many new possibilities, 
bringing us closer to the ideal of universal access to the 
corpus of recorded knowledge. But like many great things of 
value, the cost is in no way cheap.
    Digital information disseminated through the FDLP should be 
free in precisely the same way past materials have been. The 
public should not have to pay a fee to hear our government when 
it speaks. Accordingly, section 4102 of Title 44 should be 
amended to preserve this foundational democratic principle.
    Thank you again for the opportunity to share my opinions on 
this important subject, and I look forward to hearing any 
questions you may have.
    [The statement of Ms. Williams follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
     
    The Chairman. Thank you, Ms. Williams.
    The Chair will now recognize Stephen Parks for 5 minutes 
for questions. And I welcome you, and it is good to see my 
friend from Mississippi. Welcome.

                   STATEMENT OF STEPHEN PARKS

    Mr. Parks. Good morning, Chairman Harper and fellow 
Committee members. Thank you for having me here today. My name 
is Stephen Parks and I am the State librarian of the State law 
library of Mississippi.
    As the State librarian, I oversee and direct the day-to-day 
operations of the State library. And we have a staff of four 
librarians, including myself. And we have served as a selective 
depository library since the mid-1880s, with the University of 
Mississippi being our regional depository. We are located in 
the capital city of Jackson, in Chairman Harper's district. And 
if I may say so myself, I believe we provide excellent service 
to all types of users, whether it is the court, school systems, 
State agencies, law firms, or just the general public.
    We recently hosted a visit by Dr. Carla Hayden, the 
Librarian of Congress. And thank you, Chairman Harper, for 
arranging that visit with us. And at that visit, she spoke of 
the importance of access to legal materials and how we as law 
librarians help provide this access, and the FDLP helps us in 
this endeavor.
    We routinely serve members of the general public who seek 
out government information through the FDLP. This can include 
material from the Code of Federal Regulations, the U.S. Code, 
the United States reporter, and most recently we had to utilize 
our microfiche reader and pull out older editions of the 
Federal Register. And without the FDLP sending us these items, 
we would not have been able to help those members of the 
public. So we strive to provide the most effective service we 
can to our patrons.
    As many academic law libraries and private law libraries 
oftentimes limit patron access, it is important that our State 
court libraries provide great service by being open and 
available to all citizens, and by having these FDLP items 
readily accessible in various formats. And we continue to be 
grateful that, in 1972, Congress enacted legislation that 
authorized the highest appellate courts of the State to 
participate in the program. And we would hope that any 
revisions of the FDLP will retain that provision and the 
flexibility it provides to the appellate courts.
    My purpose here today is to share with you some of the 
strengths of the FDLP and some of the opportunities for 
modernization that I believe could help.
    As far as the strengths, I believe that as distributed 
network of libraries, the FDLP plays a critical role in 
providing permanent public access to government information. 
And it is a smart investment of our taxpayer dollars. The 
program relies on the willingness of libraries, such as 
ourselves, to provide this permanent public access in multiple 
formats, and in return, we receive from the government these 
free publications, opportunities for training, and various 
resources to offer local communities, regardless of background 
or income. And this is especially true in Jackson.
    When it comes to background and income, in Jackson, we have 
four selective depository libraries, two of those are law 
libraries. And of the four in Jackson, the State library is the 
most readily accessible. We do not restrict access by having--
like, for instance, the law school libraries are restricted to 
key card access now due to safety concerns. We at the State 
library are open to everyone. So we provide great access to 
those individuals in the public. And we are trained to answer 
questions about government websites, information and documents, 
thus relieving the agencies themselves from having to answer 
those questions. We as librarians are here to help with that.
    The FDLP and the GPO have been of great assistance to me 
also in my role as a legal research instructor and an 
instructor at the University of Southern Miss in their library 
and information science program. I would like to warn law 
students that when they get out and practice as a solo 
practitioner, they might not be able to afford subscription-
based services such as Westlaw or LexisNexis. On the flip side, 
I would like to teach them how to use FDsys so they can get 
freely available resources to use in their practice, so I would 
like to extol the GPO as a trusted resource where users can get 
digitized, authenticated government material for free.
    We are looking at opportunities to do some modernization. I 
first believe it should be clear in any reform bill that the 
GPO has an important role to play, not only in providing that 
permanent access, but also the preservation of government 
information in print and electronic formats. The statute is 
currently unclear about GPO's preservation rule.
    Secondly, I think the current regional and selective model 
of the FDLP works well, but I understand there are pressures on 
some libraries, such as the regionals to free up space from 
their libraries and offer greater access to born-digital 
information. So I believe there should be some flexibility 
provided to regionals, and I would be interested in discussing 
that.
    And, lastly, I also believe it is important for Congress to 
continue to invest in govinfo.gov, the website, which will 
eventually replace FDsys. Currently, under section 4102 of 
Title 44, GOP is allowed to charge fees for public access, but 
I would suggest that this language be substituted with language 
assuring no-fee public access.
    In conclusion, I am grateful to be here today, and I look 
forward to discussing ways in which the FDLP operates and ways 
that it can be improved.
    [The statement of Mr. Parks follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
       
    The Chairman. Thank you, Mr. Parks.
    The Chair will now recognize Mike Furlough of HathiTrust 
for 5 minutes for the purposes of an opening statement. 
Welcome.

                   STATEMENT OF MIKE FURLOUGH

    Mr. Furlough. Great. Thank you, Mr. Chairman and Ms. 
Lofgren and the other Members of the Committee. I much 
appreciate the opportunity to be here today and share with you 
my thoughts on transforming the Government Publishing Office 
and the Federal Depository Library Program.
    I am going to speak from my experience as the Director of 
HathiTrust, which is an organization that is supported by over 
130 academic and research libraries. We operate a certified, 
trusted digital library and preservation repository that 
preserves over 16 million digitized books, journals, and 
Federal documents. Many of these were digitized through large 
scale digitization partnerships led by Google, the Internet 
Archive, and others. And really our goal is to help our 
libraries work collaboratively to address challenges that they 
each face individually, but to do so at scale and innovative 
and affordable ways. I will focus most of my comments on the 
digitization of Federal documents.
    Over the decades, as you know, GPO has distributed millions 
of documents to hundreds of libraries across the country so 
that individuals can have ready and in-person access to 
government information. But today, especially after the 
internet, libraries have shifted their primary emphasis away 
from building large physical collections towards services to 
help individuals find and use and create information. I am 
speaking very broadly here.
    Free public access to U.S. Government information remains 
imperative, but it is not necessary to duplicate this 
information in physical format so extensively. The future 
requires that we have fewer duplicative print collections and 
that we place a greater emphasis on collaboratively managing 
the existing library collections we have.
    I think we can foresee a day when the majority of 
historical Federal publications will be available online, but 
we are not there yet. Today, HathiTrust includes over 1 million 
U.S. Federal documents that were published--that were digitized 
from the collections of depository libraries. We are 
continually working to locate and digitize millions more, and 
these are among the most heavily consulted items in our 
collection.
    Anyone with access to the internet can read these documents 
in HathiTrust, as well as millions of other open or out of 
copyright items. We don't charge for access to this collection. 
A user does not need to visit a library to gain access to read 
material in HathiTrust. We paired these services with ongoing 
programs that are really important to do things, like improve 
the quality of digital copies, improve the cataloging so it is 
easier to find what you are looking for, provide these 
materials to users who are print disabled and make them 
available for text and data mining.
    Title 44 should recognize that digitized versions of 
historical documents are effective access substitutes for many 
uses, but not all uses. We will always need to have libraries 
that retain and preserve physical collections of print material 
for consultation, but today, as you have heard, libraries face 
significant space constraints for their collections and their 
services, and they are looking to reduce costly duplication in 
the entirety of their collections.
    To help address this, we have undertaken a program that is 
developing a geographically distributed shared print collection 
among our members. This will mirror the entirety of the 
digitized collection. Under the program, our members will 
retain in suitable environments specific materials for a 
minimum of 25 years.
    A registry of these retention commitments will allow 
libraries to compare their collections with what others have 
retained and are promising to keep, and that will allow them to 
make choices about what they retain and what they would throw 
out when appropriate to do so. I believe these services can 
help us manage the collective collection well into the future.
    We do not have any direct affiliation with GPO, but we do 
count among our members 128 Federal depository libraries, 17 of 
these are regionals. They are the leaders in our government 
documents work, and as you know, GPO has undertaken similar 
work. It has partnered with the Library of Congress, for 
example, to digitize the Statutes At Large and the 
Congressional Record. Their FDLP program provides for a limited 
number of depository libraries to retain print copies so that 
others can discard.
    But GPO's regulations and resource constraints have 
sometimes made it difficult for libraries to work innovatively 
and creatively, and it has often been more challenging to 
collaborate.
    Going forward, I would hope that such programs could be 
expanded and aligned with best practices and programs that 
libraries are establishing, whether through us or other 
regional efforts that they undertake. I believe GPO really 
should be empowered to build upon these efforts and not feel 
the need to duplicate them all.
    Title 44 should be modernized to reflect how contemporary 
libraries operate. It should promote comprehensive and enduring 
digital access to government information created in the future 
and also to documents published in the past. It should ensure 
the privacy of individuals who access digital government 
documents, and regulations at GPO should enable the libraries 
to more easily collaborate among themselves.
    Finally, I think GPO should be able to easily make use of 
the results of such collaborations and the work of their 
libraries by having clearer authority to accept gifts. And 
lastly, I believe Title 44 should help these libraries more 
cost effectively manage their collections.
    What we have seen over the past decades is that when 
research libraries can collaborate at very large scales, they 
can dramatically and affordably improve long-term and durable 
access to information. And preservation and access really is 
our business, and we are ready to work with the GPO and other 
organizations to help ensure the public information endures.
    So thank you very much, and I welcome any questions.
    [The statement of Mr. Furlough follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
    The Chairman. Thank you, Mr. Furlough. And thanks to each 
of you for your testimony.
    And now we have time for questions. So as Chair, I will 
recognize myself for 5 minutes for the purpose of questions. 
And if you would, make sure all of your mics are turned off 
until you answer. That will just kind of help with any feedback 
we might incur.
    But this really is a very important issue. I agree with--
associate myself with Ms. Lofgren's comments earlier that it is 
important as part of regular order to review this, go through 
this process to see how we can make something that we like 
better and be ready to move to the future.
    So I will recognize myself now, and I will start with you, 
Mr. Parks, and ask you a couple of questions. And first of all, 
congratulations on your August event that you had with Dr. 
Carla Hayden. It is pretty special to know that Mississippi 
became a State in mid-December of 1817. In January of 1818, 
what happened?
    Mr. Parks. Just a month after becoming a State, the 
legislature passed a resolution directing the Secretary of 
State to purchase books and maps, and that collection has 
evolved into what has become today's library.
    The Chairman. That is a great story. And so you had Dr. 
Hayden in August, and you have a special guest coming in 
tomorrow, I believe.
    Mr. Parks. Tomorrow, Chief Justice John Roberts will be in 
attendance to celebrate the judiciary's bicentennial. He will 
be hosting a moot court argument between Mississippi College 
and the University of Mississippi.
    The Chairman. And we can't wait to see who you are going to 
have in October. So this will be great.
    Mr. Parks. Have to celebrate the entire year.
    The Chairman. There you go.
    In your written testimony you state: Beyond mere access, 
FDLP libraries have skilled librarians who assist the public in 
navigating the government information available to them.
    Would you share with us your view on how GPO's role in 
training helps FDLP librarians.
    Mr. Parks. Training in general helps because a lot of times 
when the public approaches a law library, they approach a law 
library nervously. They don't know what they are looking for, 
how to look for it, or how to even interpret it. I mean, as 
librarians, we can't interpret it, but we can lead them to the 
material themselves.
    So any time GPO or the FDLP is able to provide training, 
whether it be in-person training or a webinar, I try to push my 
staff members to sign up for that, just to help. Because you 
never know when we are going to get someone from the public 
coming in who has no clue what to do, and we are there to help 
them find that material.
    The Chairman. That is great. And, you know, as a selective 
depository librarian, share with us your relationship with your 
regional depository.
    Mr. Parks. We have a great relationship. We have a new 
director at the regional. Her name is Ashley Dees. The 
previous--Laura Harper retired last year. I was not able to 
work directly with her. She was retiring as I came onboard. But 
I have been in touch with Ashley. We discussed ways that we 
might could actually increase parts of our collection from the 
FDLP. And we plan to meet up at the Mississippi Library 
Association meeting next month.
    So we do have a great relationship. Any time we need 
something from them, they are willing to either come down to 
Jackson or we even go up to Oxford occasionally and determine 
what we could do to increase our relationship.
    The Chairman. When we talk about the regional depository--
let's say the University Mississippi were to relinquish its 
status as a regional depository. How would that impact the 
State law library of Mississippi?
    Mr. Parks. I think it would impact the entire State. We 
only have one regional where some States have two. But I do 
think we would work through it. We have 11 selectives 
throughout the entire State, and at least four just in the 
metro Jackson area. So I would assume we would all get together 
and work through it. Of course, we would like to have the 
university remain the regional depository or some other library 
step up, but we would do our best to work through it. I would 
even consider offering us up as a regional, but we don't have 
the space. I know exactly what they mean when the regionals 
talk about space issues, because we don't have much space 
either.
    The Chairman. Got it. But we are not planning on the 
University of Mississippi giving up that status on that.
    And this is to the whole panel, whoever cares to answer 
this. Digital preservation of documents requires three core 
components: resources, policy infrastructure, and technical 
infrastructure. Am I missing any in that?
    Could you help guide us on what might be required to 
preserve the electronic Federal collection? Anybody want to 
comment on that?
    Mr. Furlough. I will take a stab at that. I believe that--I 
want to echo something that Ms. Hall said earlier today, which 
is that I think collaboration is really critical on this. There 
is a role for certain kinds of centralization for organizations 
to take responsibility for retaining and preserving digital 
information or print information, but you need a network of 
these, you need different organizations to take on different 
kinds of roles. You need different libraries to take on 
different kinds of roles. I believe, you know, some 
specialization is necessary, especially when we look to the 
future of digital information. The necessity is that you have 
different expertise in different places and you draw upon that 
as needed, so----
    The Chairman. Thanks to each of you.
    The Chair will now recognize Ms. Lofgren for 5 minutes.
    Ms. Lofgren. Thank you, Mr. Chairman. This is excellent 
testimony, and you have all made very important suggestions. 
And hopefully, we can incorporate, as we look to do even 
better, at preserving and making accessible the information 
that belongs to the public.
    Just seeing the geographic breadth of our witnesses from 
Maryland to California, Mississippi, you can see that this 
really spans the whole United States, how interested--and 
Pennsylvania, of course.
    So I have just a couple of questions. You know, I was 
reading your bio, Ms. Williams, and I see that you taught legal 
research one time. A long time ago, I taught legal research. 
And it is completely different now with the digital world that 
we have than when I taught that.
    I am thinking about what role we need to play, if any, in 
making sure that the platforms are accessible to the public. 
And I will just--we have oversight over the Copyright Office. 
Every one of us believes in strong copyright protection. On the 
other hand, if there are barriers to access to information, 
that is a competing interest, because the public has a right to 
see the law.
    So are there things that should be brought to our 
attention, Ms. Williams? For example, we have got different 
formats. For some reason lawyers like to use WordPerfect 
instead of Word. We have got Page, we have got different 
proprietary programs that we may or may not have rights to use 
under copyright protection. And yet, without access to those 
programs, the data that the public owns is simply inaccessible. 
Is that a problem or am I making up a problem?
    Ms. Williams. Thank you. I don't think you are making up 
the problem. I think, as a threshold matter, teaching law 
students how to do legal research has become more complicated 
rather than less complicated in the digital age.
    In terms of how the GPO should position itself in order to 
better serve the public, I guess I want to step back and say 
one thing: The primary commercial publishers of U.S. law are 
not United States companies. So if it were possible for a 
revision of Title 44 to include both digital access to the 
primary laws of this country, which is pretty much my 
motivation for being involved here today, that could open up, 
at a minimum, opportunities for questions for researchers that 
people in my home institution are hungry to pursue, but also--I 
was sure it was going to be my fault--but to offer bulk access 
to the primary laws of this country in a digital form could 
also change the commercial industry. We have many startups in 
my part of the country that are trying to innovatively create 
broader access to legal research materials, and that would be a 
fantastic outcome to broaching the problems of managing digital 
information.
    I am not sure if that answers your question, but I guess I 
would say we are always worried about what the formats are, how 
accessible they are, and how freely accessible they are. So----
    Ms. Lofgren. Well, it does--and it leads to the next 
question, which I raised to the prior witness, about standards 
that are incorporated by reference into law that are then 
locked off because of copyright assertion to the public, which 
to me, is a huge due process issue, I mean, if you are required 
to comply with a provision of law that you can't learn about.
    Ms. Williams. I couldn't agree more. The publicresource.org 
case that is pending before the D.C. Circuit is an incredibly 
important one, and I think one that most members of the public 
are not woke to. They don't realize that if private companies 
claim some ownership over the laws that bind our citizens, that 
could have incredibly personal negative implications.
    Ms. Lofgren. Well, and just a final question. I also come 
from Silicon Valley, and I am proud, I am a Stanford grad, and 
glad to see somebody from home here on the panel. Silicon 
Valley is the hotbed of innovation. It seems to me that access 
to the raw information must be made available to the public. 
But there is tons of room to innovate in the private sector on 
manipulating, understanding, using, slicing and dicing, that 
information that would still be a profit center for people who 
wanted to do that.
    Ms. Williams. There is no doubt that even something as 
currently interesting as data analytics, as a threshold 
matters, these companies need to get access to the data first, 
and right now, there are too many impediments.
    Ms. Lofgren. My time is up, Mr. Chairman. Thank you.
    The Chairman. Thank you, Ms. Lofgren. The gentlelady yields 
back.
    The Chair will now recognize Mr. Davis, Vice Chairman of 
the Committee, for 5 minutes.
    Mr. Davis. Well, thank you. The Chairman and I were 
discussing moot court competitions in Mississippi for lawyers. 
I did not know if that was a requirement down there or not, but 
it seems like you have had a few exciting weeks and exciting 
few weeks in front of you too, so congratulations.
    My questions are actually for Ms. McDonald. What type of 
baked goods do you usually bring?
    Ms. McDonald. I have actually had to get some variety in 
there. Originally, it was pumpkin bread pudding with rum raisin 
caramel sauce. People do the heavy lifting when I bring that 
in. And then black bottom brownies with chocolate chip 
cheesecake on top, and most recently a chiffon cake with 
whipped cream and berries.
    Mr. Davis. I am going ask the Chairman to have you back 
next week. Those are gourmet baked goods, yes.
    Ms. McDonald. I have to bring the good stuff because these 
are difficult projects.
    Mr. Davis. Well, that is great. Hey, maybe that will work 
with us too, we will bring those down to our next retreat.
    Ms. McDonald, you were an FDLP librarian at a regional 
depository when the decision was made to relinquish regional 
status and instead become a selective depository. Why was that 
decision made?
    Ms. McDonald. For several reasons. I would say the biggest 
overarching one was space concerns. The collection occupied the 
majority of what was the third floor. It was actually kind of 
the ground floor. And on a lot of college campuses, the 
administrations are looking into the libraries; they want to 
transform those spaces to more user spaces, to computer labs, 
to high-tech spaces like makerspaces where you have got 3-D 
printing that can help students with their research and their 
group projects. So they really wanted to see a way to repurpose 
that space.
    And at the same time for the libraries, the big issue was 
that we had a lot of stuff that was duplicated electronically 
as well as there. And it was very, very hard for us to justify 
using that space when there was another regional in the State 
that would happily hold onto all of that, but we are not 
required to get rid of too many things. And in fact, I reached 
out to my colleagues there and they have only gotten rid of a 
bit of it. The stuff that they have gotten rid of was actually 
degradating, it was microfiche, and so it was going to be 
rendered unusable anyway. But they have also been able to 
repurpose that space.
    And for me, I signed up for it because, after my research, 
I was able to ascertain that I could continue to provide access 
to that content. And that for me is the bottom line. I don't 
really--if somebody comes in and asks me a question, I don't 
care where they are from, all I care about is getting them the 
right information at the right time. And when I was able to see 
that I could continue to provide access to that content we had 
on our shelves, even if we were selective, then that is kind of 
when I said yes, that we should move forward with that.
    Mr. Davis. Was that process to move from a regional to a 
selective library an easy process?
    Ms. McDonald. No. It took about, I would say--it took 2 
years overall. But overall, the big part of it was the 
beginning part of it. I had to send out a letter, kind of a 
warning, saying, hey, we are looking at relinquishing regional 
status. And I sent that to all stakeholders, legislators, the 
university campus, so that people could send us feedback and 
their opinions. So that this was kind of the time for them to 
say, no, we don't want this.
    We also used that time to talk with GPO, other selectives 
in the library, the other regional to make sure that they were 
okay with us relinquishing regional status.
    And then after that first letter was sent out, 6 months 
later, we sent out our second letter saying, okay, we talked 
with everybody, now we are relinquishing regional status and 
this is the effective date.
    Mr. Davis. Do you think you will maybe go through that 
process with the University of Maryland?
    Ms. McDonald. I don't know.
    Mr. Davis. And how do you--why not?
    Ms. McDonald. Well, for one thing, it is a much trickier 
situation. We have three areas. We have got D.C., we have got 
Delaware, we have got Maryland. And if we relinquish regional 
status, then all of the libraries that are not Federal agency 
libraries will have to retain everything that is in their 
collection. They will not be able to discard their materials.
    The Federal agencies have different rules, so they would be 
able to discard materials through the Library of Congress or 
through NARA, but everybody else is not a Federal agency. They 
would be stuck with all of their materials.
    Additionally, I think as close as we are to D.C., I have 
worked a great deal, get more and more with NARA and the 
Library of Congress where they have to refer questions our way. 
I am finding out that our collections complement each other, 
that each group kind of has different types of materials that 
are accessible.
    Mr. Davis. So kind of regional centers of excellence then? 
Do you have--if their collections complement each other, so is 
there discussion on you get these types of materials here? 
Because obviously, there is a problem holding onto collections 
in perpetuity, correct?
    Ms. McDonald. Right.
    Mr. Davis. So are you communicating with other regionals 
and other FDLPs and other selectives to basically say how do we 
maximize our space to be able to have access to those 
collections and therefore we can interchange?
    Ms. McDonald. Yes, I am. Sorry, too loud. I have got a very 
loud voice.
    Mr. Davis. It is okay, pumpkin, spice, bread pudding.
    Ms. McDonald. I will bring that next time.
    I am talking with them. I am hoping that--I have been 
exploring it more recently. I have visited some Federal 
agencies actually where one agency is collecting a title and 
they are actually paying for it to be bound. As a regional, I 
am getting it bound for free. And for the purposes of my 
institution, we don't actually need those bound copies. We are 
keeping the historical ones, but those more recent ones we have 
no real use for. We have them in a variety of other formats.
    My question right now is, though, I am not sure that I can 
work out a shared agreement with them, because technically, 
they are across a State line. So I am not sure if I am allowed 
to actually go into that.
    Mr. Davis. Sounds like healthcare.
    Ms. McDonald. Because right now, the barriers that we have 
right now is you can't send it across the State line. So it 
would be lovely if I could do that. I could save the Fed some 
money, save myself some space. That is a win-win situation.
    Mr. Davis. I know you are out of time and I am out of time, 
but I am happy to work with you to address those State line 
issues. Thank you.
    Ms. McDonald. Thank you.
    The Chairman. The gentleman yields back.
    The Chair will now recognize Mr. Raskin for 5 minutes for 
the purpose of questions.
    Mr. Raskin. Mr. Chairman, thank you very much. And hello to 
all the witnesses, and thank you for your excellent testimony. 
A special welcome to you, Ms. McDonald, from my home State.
    And I actually wanted to ask a question of you or actually 
anybody else who wants to take a shot at it. There are--I know 
that there are commercial services that sell government 
publications and centralize them. And I am wondering, do your 
libraries use these services? Why do you use them if you do? 
Does that make it easier for library patrons to access the 
documents? And are the contents generally not part of the FDLP 
collection?
    So I am curious about your relationship with these 
commercial services. I don't know if, Ms. Williams or Ms. 
McDonald, you want to start.
    Ms. McDonald. I actually live in your district too.
    Mr. Raskin. All the better. And I have got a sweet tooth 
myself.
    Ms. McDonald. I would say that, yes, we do use those 
commercial products. They are very valuable and very, very 
helpful. A lot of times there is content overlap. We are 
getting materials that GPO or the Feds have put out. However, 
our users find them easier to use, to navigate those resources 
in there.
    In particular, we used to have Westlaw at the University of 
Maryland. And law librarians and law students love Westlaw. I 
find for Maryland actually, though, that is kind of posing a 
problem for us, because we are having--although we have got a 
flat budget due to serial inflation across all disciplines, 
having a flat budget is a little bit like getting a cut budget.
    And so a couple of years ago, we actually had to cut 
Westlaw from our collections. We had content overlap from 
another database, and so we had to use that. But it was a very 
unpopular decision. I wish somebody had brought me some bread 
pudding that day. But we use a lot of different resources. 
There is a lot of--I actually contacted my colleague at 
Maryland, and at least 11 percent of our collection, of our 
database prices go to these supplementary subscription 
services.
    Mr. Raskin. But just back on that Westlaw point, does that 
mean that the----
    Ms. McDonald. That is all of them. That covers several 
providers. I chose our top five.
    Mr. Raskin. Does that mean that the law professors and law 
students at the University of Maryland Law School are not able 
to use Westlaw, or do they have a separate----
    Ms. McDonald. They actually are separate because they are 
from Baltimore. Those students can go in and use all the 
resources up there.
    Mr. Raskin. I got you. So it is different for the law 
school. But generally, Westlaw is not available to people who 
patronize the----
    Ms. McDonald. I miss it. It was a lot easier to help people 
before.
    Mr. Raskin. Yeah. And you were able to save how much money 
by eliminating those services?
    Ms. McDonald. I think that was over $50,000, but I can't 
remember the exact number. I can get it.
    Mr. Raskin. Yeah. Okay.
    And Ms. Williams now.
    Ms. Williams. I will just add that most academic libraries 
spend hundreds of thousands of dollars a year to buy public 
domain materials from a variety of commercial vendors. Some of 
those vendors restrict access so that only the contractor--
incredibly limited--only full-time faculty staff and students 
of the law school, for example, have access under the Westlaw 
and Lexis contracts that we signed. They are unbelievably rigid 
about those terms. They will not open up the packages to other 
entities and even a university community without considerable 
cost.
    But we also buy other forms of commercial access to public 
domain content because they have metadata that is incredibly 
important for us. They are provided in a digital format that is 
not otherwise available. Digitized hearings for instance, spend 
huge amounts of money to be able to have access to that kind of 
material because it is a more robust search that makes 
discovery a whole lot more possible.
    Does that answer your question?
    Mr. Raskin. Yeah, absolutely.
    That is all I had, Mr. Chairman. I will yield back.
    The Chairman. The gentleman yields back.
    The Chair will now recognize the gentleman from Georgia, 
Mr. Loudermilk, for 5 minutes.
    Mr. Loudermilk. Thank you, Mr. Chairman.
    I was not sure after this weekend if the gentleman from 
Mississippi would recognize the gentleman from Georgia, but I 
am glad that----
    The Chairman. Thank you for thinking that, Mr. Loudermilk.
    Mr. Loudermilk. But thank you, Mr. Chairman. I appreciate 
this hearing.
    Mr. Furlough, I understand that HathiTrust is creating a 
registry of U.S. documents. Is that true?
    Mr. Furlough. Yes, sir, that is true.
    Mr. Loudermilk. Okay. How does your registry differ from 
the catalog of government publications that the Superintendent 
of Documents has required?
    Mr. Furlough. Thank you for the question. The registry of 
Federal publications that HathiTrust is developing is somewhat 
broader, and it is intended to not only identify Federal 
publications that exist, but also for us to be able to identify 
materials that are held in libraries so that then we can 
identify them for digitization as well.
    The way we have proceeded to create that registry is to 
collect a significant number, really over 25 million catalog 
records from libraries of items that they have identified as 
Federal documents. We then analyze those records and have 
reduced them down to identify what we believe to be not a 
complete set, but a much reduced size registry.
    I think librarians and GPO would recognize that the catalog 
government publications is not complete. Materials that were 
published prior to 1976 often were not cataloged. There really 
isn't a single location to go to identify every publication 
that was produced at Federal expense. So we have undertaken 
this project both to help us digitize materials, but also to 
help our member libraries and the public really understand what 
is the corpus of Federal documents and to do so a little bit 
more broadly than I think what is covered in Title 44.
    Mr. Loudermilk. Okay. So do you perceive that HathiTrust, 
your project, would be--would meet the criteria of what the 
Superintendent of Documents is required to----
    Mr. Furlough. I don't believe I could answer that question 
without consulting those criteria.
    Mr. Loudermilk. Okay. Is it something you are willing to 
share with the Federal Government?
    Mr. Furlough. I am sorry?
    Mr. Loudermilk. Is your project something you are willing 
to share with the Federal Government?
    Mr. Furlough. Oh, absolutely. Absolutely yes. And it is 
available right now for anyone to search. As I said earlier, I 
want to understand what are the requirements and obligations of 
GPO for gift authority at that time.
    Mr. Loudermilk. Okay. Thank you. No further questions.
    The Chairman. The gentleman yields back.
    Again, we would like to thank each one of you for being 
here. You know, this is in-the-weeds information. Very, very 
helpful to us as we go forward, particularly looking at how to 
modernize Title 44. So this is essential and you each helped us 
a great deal.
    So without objection, all Members will have 5 legislative 
days to submit to the Chair additional written questions for 
the witnesses, which we will forward and ask the witnesses to 
respond as promptly as you can so that those answers may be 
made a part of the record.
    I would also like to ask for unanimous consent that the 
record be left open for 10 additional business days to allow 
members of the public to submit written questions on this 
issue.
    Without objection, this hearing is adjourned.
    [Whereupon, at 11:41 a.m., the Committee was adjourned.]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
   
                        [all]
                        
                        
                        
</pre></body></html>
